TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Using SmartID Cards to Access Computer
                   Systems Is Taking Longer Than Expected



                                      September 28, 2012

                              Reference Number: 2012-20-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                HIGHLIGHTS

USING SMARTID CARDS TO ACCESS                       two-factor authentication component. This
COMPUTER SYSTEMS IS TAKING                          decision led to numerous issues. The project
LONGER THAN EXPECTED                                team did not make adequate progress in some
                                                    crucial areas such as developing two-factor
                                                    authentication for computer administrators,
Highlights                                          conducting required testing, and completing key
                                                    documents and processes.
Final Report issued on                              WHAT TIGTA RECOMMENDED
September 28, 2012
                                                    TIGTA recommended that the Chief Technology
Highlights of Reference Number: 2012-20-115         Officer direct IRS Labor Relations to notify the
to the Internal Revenue Service Chief               National Treasury Employees Union and begin
Technology Officer.                                 negotiating mandatory use of the SmartID cards.
                                                    TIGTA also recommended that the Assistant
IMPACT ON TAXPAYERS                                 Chief Information Officer, Cybersecurity, appoint
                                                    a certified project manager with the requisite
The President’s Cyberspace Policy emphasized        training and experience to lead the Internal
that agencies need to use SmartID cards to          Identity and Access Management project and
access computer systems. The IRS’s efforts to       direct the project manager to ensure the
upgrade its systems to use the SmartID cards        required security control assessment is
are taking longer than expected. Upgrading the      completed, select a method to implement
security of computer systems is important to        two-factor authentication for administrators,
prevent disruptions in critical IRS processes and   coordinate the activities to ensure all required
to protect taxpayers’ personal information from     testing is completed, and complete the required
unauthorized access.                                documents and processes that are needed to
WHY TIGTA DID THE AUDIT                             fully test and evaluate the system.

This audit was initiated to evaluate the            The IRS agreed with seven of the
implementation and security of the IRS’s            recommendations and plans to bargain with the
two-factor authentication system for accessing      National Treasury Employees Union as
computer systems. Two-factor authentication is      appropriate on mandatory use of the SmartID
a secure approach to verifying employees’           Cards, appoint a certified project manager and
identities on a system and requires the             provide adequate resources to the project, and
presentation of two identifying factors:            assign project resources to determine if a viable
something the user knows (a personal                solution for administrators’ use of SmartID cards
identification number) and something the user       exists. The IRS disagreed with two
has (a SmartID card). Two-factor authentication     recommendations regarding the required testing
provides significant improvement in computer        of the new system and stated that testing was
security in terms of allowing access to systems.    completed in accordance with its procedures
                                                    and additional testing is not necessary.
WHAT TIGTA FOUND
                                                    TIGTA remains concerned about the IRS’s
The IRS developed a two-factor authentication       disagreement on the issue of testing. The IRS
system with the required components.                did not conduct the required testing for the most
However, significant delays prevented the IRS       significant part of the two-factor authentication
from deploying the new two-factor authentication    system, which is the part employees will use to
system as originally planned. The IRS originally    authenticate to the IRS network. TIGTA found
planned to complete the deployment by               no evidence that the security, integration,
September 2011. The deployment is now               capacity, and performance testing were
planned to be completed by July 2013.               conducted for this crucial part of the system.
In addition, the IRS did not appoint a project
manager with the requisite training and
experience to lead the Internal Identity and
Access Management project, which included the
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Using SmartID Cards to Access Computer
                             Systems Is Taking Longer Than Expected (Audit # 201120011)

 This report presents the results of our review of the Internal Revenue Service’s efforts to
 implement the use of SmartID card access for computer systems. This audit is included in our
 Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of Security
 for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included in Appendix VIII. The response
 details the Internal Revenue Service’s disagreement with two recommendations and indicates the
 required testing was not conducted prior to deploying the two-factor authentication system using
 SmartID cards. In addition, responses to other recommendations indicate this project is not
 being given sufficient priority. Because we believe the Internal Revenue Service’s
 disagreements to our findings and recommendations are significant, we plan to elevate our
 concerns to the Department of the Treasury. We request that the IRS Commissioner submit a
 written reply to the Assistant Secretary for Management and Chief Financial Officer of the
 Department of the Treasury within 30 calendar days of the final report issuance date.
 Copies of this report are also being sent to the Internal Revenue Service Managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                         Using SmartID Cards to Access
                                Computer Systems Is Taking Longer Than Expected




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Developed a Two-Factor
          Authentication System With the Required Components .............................. Page 4
          The Internal Identity and Access Management Project
          Encountered Significant Delays .................................................................... Page 5
          A Project Manager Was Not Appointed to Manage the
          Internal Identity and Access Management Project ....................................... Page 7
          Use of SmartID Cards Will Be Further Delayed .......................................... Page 7
                    Recommendation 1:........................................................ Page 10

                    Recommendations 2 through 4:......................................... Page 11

                    Recommendation 5:........................................................ Page 12

          Required Testing Was Not Conducted ......................................................... Page 12
          Key Enterprise Life Cycle Artifacts and Processes Were
          Not Completed .............................................................................................. Page 14
                    Recommendations 6 through 8:......................................... Page 18

                    Recommendation 9:........................................................ Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Authentication to Network Diagram .................................... Page 25
          Appendix V – Diagram of Oracle Enterprise Single Sign-On
          Manager Software ......................................................................................... Page 26
                              Using SmartID Cards to Access
                     Computer Systems Is Taking Longer Than Expected



Appendix VI – Delays in Implementing Reduced SmartID
Sign-On (RSSO) .......................................................................................... Page 27
Appendix VII – Glossary of Terms .............................................................. Page 28
Appendix VIII – Management’s Response to the Draft Report ................... Page 34
                Using SmartID Cards to Access
       Computer Systems Is Taking Longer Than Expected




                  Abbreviations

ELC        Enterprise Life Cycle
ESSO       Enterprise Single Sign-On Manager
FY         Fiscal Year
HSPD       Homeland Security Presidential Directive
IIAM       Internal Identity and Access Management
IRS        Internal Revenue Service
MRR        Milestone Readiness Review
OMB        Office of Management and Budget
PIV        Personal Identity Verification
RSSO       Reduced SmartID Sign-On
                                   Using SmartID Cards to Access
                          Computer Systems Is Taking Longer Than Expected




                                           Background

On August 27, 2004, President Bush signed Homeland Security Presidential Directive-12
(HSPD-12), Policy for a Common Identification Standard for Federal Employees and
Contractors. This directive established a new standard for issuing and maintaining identification
badges for Federal employees and contractors entering Government facilities and accessing
computer systems.1 The intent was to improve security, increase Government efficiency, reduce
identity fraud, and protect personal privacy. Agencies are required to use Personal Identity
Verification (PIV) badges (also referred to as SmartID cards) to access computer systems
(logical access).
Over the past five years, the HSPD-12 mandate has been emphasized continuously.
       The Department of the Treasury (hereafter called the Treasury Department) issued
        Treasury Directive 85-01, Treasury Information Technology Security Program,2
        establishing Security Enhanced Controls 14 and 15. Security Enhanced Control 14
        mandates two-factor authentication for access to all administrator accounts and Security
        Enhanced Control 15 requires bureaus to design authentication methods with HSPD-12
        credentials for access to all systems.
       The President’s Cyberspace Policy Review, issued in May 2009, and the President’s
        budget for Fiscal Year (FY) 2011 highlighted the importance of identity management in
        protecting the Nation’s infrastructure.
       The Office of Management and Budget (OMB), in February 2011, emphasized the
        continued implementation of HSPD-12 by requiring that SmartID cards be used as the
        common means of authentication for access to the agency’s facilities, networks, and
        information systems.3 The OMB also required agencies to follow specific technical
        standards and business processes for the issuance and routine use of the SmartID cards.
       In the same OMB February 2011 memorandum, the Department of Homeland Security
        required agencies to develop an implementation plan to expedite the full use of the
        SmartID cards as the common means of authentication for access to networks and
        information systems. Effective at the beginning of FY 2012, existing logical access
        control systems must be upgraded to use SmartID cards prior to the agency using
        development and technology funds to complete other activities.

1
  See Appendix VII for a glossary of terms used throughout this report.
2
  Department of the Treasury, Treasury Directive Publication 85-01 (Rev. 2.2), Treasury Information Technology
Security Program (Nov. 2006, includes updates as of March 1, 2012).
3
  OMB, Memorandum 11-11, Continued Implementation of Homeland Security Presidential Directive (HSPD) 12 –
Policy for a Common Identification Standard for Federal Employees and Contractors (Feb. 2011).

                                                                                                       Page 1
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



The Internal Revenue Service (IRS) is addressing the logical access portion of the HSPD-12
mandate and Treasury Department’s two-factor authentication directive through its Internal
Identity and Access Management (IIAM) program. Phase 2 of this program (hereafter called the
IIAM project) includes designing, developing, and deploying the capability of employees to use
SmartID cards to authenticate to:
      The Windows® network.
      Administrator accounts, which provide elevated access privileges.
      The IRS’s virtual private network, known as the Enterprise Remote Access Project,
       which is used by employees working in remote locations. The grid cards currently used
       to authenticate to this virtual private network must be replaced with SmartID cards.
      Mainframe systems.
The IRS plans for 50,000 employees to use their SmartID card for logical access by the end of
December 2012.
System security will be significantly improved at the IRS once employees are using SmartID
cards for logical access. Users will insert their SmartID card into a card reader connected to the
computer or into a built-in card reader slot that is present on some computers and, when
prompted, type in their personal identification number. The software on the computer verifies
the SmartID card and personal identification number by communicating with a database located
at the Treasury Department’s Bureau of the Public Debt. See Appendix IV for a diagram of the
authentication system the IRS developed to use SmartID cards for logging on to the network.
The scope of the IIAM project also includes deployment of the Oracle Enterprise Single Sign-On
Manager (Oracle ESSO) software to computer workstations and laptop computers. This
commercial off-the-shelf software is intended to provide a short-term solution to further reduce
the use of passwords when accessing IRS applications. However, IIAM project officials
informed us that this software is not the long-term solution for authenticating employees to IRS
applications. See Appendix V for a diagram of how the Oracle ESSO operates. IIAM project
officials report to the IRS’s Security Services and Privacy Executive Steering Committee, which
provides oversight and approves the project’s Enterprise Life Cycle (ELC) Milestone Exit
Reviews.
This review was focused on the IRS’s efforts to implement two-factor authentication for its
network using SmartID cards. We performed the review in the offices of the Information
Technology organization in New Carrollton, Maryland, and Martinsburg, West Virginia, from
January through June 2012. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed

                                                                                            Page 2
                               Using SmartID Cards to Access
                      Computer Systems Is Taking Longer Than Expected



information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 3
                                   Using SmartID Cards to Access
                          Computer Systems Is Taking Longer Than Expected




                                    Results of Review

The Internal Revenue Service Developed a Two-Factor Authentication
System With the Required Components
Implementation policies were updated – The IRS updated its implementation policies consistent
with the Treasury Department and Department of Homeland Security directives. These policies
are intended to help the IRS expedite the use of SmartID cards for logical access and to comply
with Federal mandates. The IRS made the following updates to its policies:
       Effective the beginning of Fiscal Year 2012, existing physical and logical access control
        systems must be upgraded to use PIV credentials, in accordance with National Institute of
        Standards and Technology guidelines, prior to the agency using technology refresh funds
        to complete other activities.
       Procurements for services and products involving facility or system access control must
        be in accordance with HSPD-12 policy and the Federal Acquisition Regulations. In order
        to ensure Government-wide interoperability, OMB Memorandum 06-18, Acquisition of
        Products and Services for Implementation of HSPD-12, dated June 6, 2006, requires
        agencies to acquire products and services that are approved as compliant with Federal
        policy, standards, and supporting technical specifications.
       Effective immediately, all new systems under development must be enabled to use PIV
        credentials, in accordance with National Institute of Standards and Technology
        guidelines, prior to being made operational.
       Agency processes must accept and electronically verify PIV credentials issued by other
        Federal agencies.
       The Government-wide architecture and completion of agency transition plans must align
        as described in the Federal Chief Information Officer Council’s Federal Identity,
        Credential, and Access Management Roadmap and Implementation Guidance, dated
        November 10, 2009.
The two-factor authentication system included the required components – The IRS’s
two-factor authentication system includes the three main components required by Federal
Information Processing Standard Publication 201.4 These components include:


4
 National Institute of Standards and Technology, FIPS PUB 201-1, Federal Information Processing Standards
Publication: Personal Identity Verification of Federal Employees and Contractors (Mar. 2006).

                                                                                                      Page 4
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



      PIV Front-End Subsystem – PIV cards, card readers, and personal identification number
       input devices. The PIV cardholder interacts with these components to gain logical access
       to the desired Federal resource.
      PIV Card Issuance and Management Subsystem – the components responsible for
       identity proofing and registration, card and key issuance and management, and various
       repositories and services required as part of the verification infrastructure.
      Access Control Subsystem – the logical access control systems, the protected resources,
       and the authorization data.
The IRS acquired products that are compliant with technical specifications
      The ActivClient middleware used to read the SmartID cards is certified by the National
       Institute of Standards and Technology.
      The Oracle ESSO software is an approved product in the IRS Enterprise Architecture.
      The external card readers purchased to read the SmartID cards are personal
       computer/SmartID card certified.
The combination of the card readers and the ActivClient middleware enables users to
authenticate to the network using their SmartID cards.
As previously stated, the Oracle ESSO software is an interim solution until a more significant
change to the IRS’s infrastructure can be implemented. The software is not certified by the
National Institute of Standards and Technology and does not reduce the number of identity stores
at the IRS. The IRS’s final solution will reduce the number of identity stores and allow system
administrators to efficiently add and remove users’ access to applications. Reducing the number
of identity stores the IRS has will also reduce the risk of unauthorized access to systems.

The Internal Identity and Access Management Project Encountered
Significant Delays
The IRS is 22 months behind its original planned completion date for implementing the new
two-factor authentication system and enabling all employees to use SmartID cards for logical
access. The original completion date was September 30, 2011, but the IRS now expects to fully
complete the implementation by July 26, 2013. The following delays prevented the IRS from
implementing the IIAM project on time. See Appendix VI for a timeline of these delays.
The encryption requirements changed – The IRS successfully upgraded the level of encryption
for the certificates on the SmartID cards from secure hash algorythym-1 to secure hash
algorythum-256 to meet the requirements recommended by the National Institute of Standards




                                                                                         Page 5
                                    Using SmartID Cards to Access
                           Computer Systems Is Taking Longer Than Expected



and Technology.5 The IRS initially believed it could not support the stronger encryption
standards and would be forced to upgrade its Windows XP operating system on all computer
workstations. However, the IRS coordinated with the Microsoft Corporation to obtain a service
patch that made the operating system compatible with the new encryption standard.
The Oracle Corporation acquired Passlogix – When the IRS originally procured the Oracle
ESSO software in August 2010, this software was named v-GO SSO and was owned by a
company named Passlogix. In October 2010, the Oracle Corporation purchased Passlogix and
rebranded the software to reflect the new owner. This change caused problems in the software,
and it ceased to function as intended. The IRS’s reliance on the Oracle Corporation to address
these issues took a considerable amount of time and caused additional delays.
Negotiations with the National Treasury Employees Union – The IRS is required to negotiate
with the National Treasury Employees Union when the IRS initiates changes to employees’
working conditions. Negotiations with the Union to implement the IIAM project took longer
than expected due to three issues.
    1. Discipline – Managing employees who repeatedly lose their SmartID card, who are
       repeatedly locked out of their accounts, and who gain inappropriate access to the
       network.
    2. Communication Packet – Issuing a “communication packet” to employees with
       instructions on how to use the Reduced SmartID Sign-On capability (RSSO).6 The
       packet must be issued to all affected employees no less than five workdays before
       implementation.
    3. Unauthorized Access – Adding the following statement to the Memorandum of
       Understanding that was signed by the IRS and the Union: “Bargaining unit employees
       will not be held responsible and/or disciplined if an employee’s Reduced SmartID
       Sign-On system accesses an unauthorized system and/or network through no fault of the
       bargaining unit employee.”
Filing Season Moratorium – Every year a filing season moratorium is put into place at the IRS
to stabilize its production environments during peak processing times. During the moratorium,
no changes to the production environment are allowed to be implemented without executive
approval, and the IIAM project did not have this approval. In FY 2011, the moratorium was in
effect from November 30, 2010, through May 23, 2011, and in FY 2012, from November 1,
2011, through May 21, 2012.
The Customer Account Data Engine, version 2, was a higher priority – On October 14, 2011,
the IRS Information Technology organization’s Enterprise Operations function requested that the
5
  National Institute of Standards and Technology, NIST Special Publication 800-78-3, Cryptographic Algorithms
and Key Sizes for Personal Identity Verification (Dec. 2010).
6
  The Reduced SmartID Sign-On is a significant part of the IIAM project and provides two separate yet related
functions: 1) the capability to logon to the IRS network and 2) the capability to use the Oracle ESSO software.

                                                                                                          Page 6
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



IIAM project delay its deployment of the RSSO until May 2012. This request was due to the
Enterprise Operations function’s responsibility for ensuring the IRS Customer Account Data
Engine 2 would operate as intended during the filing season. The Customer Account Data
Engine 2 was a top priority, and the Enterprise Operations function could not afford for their
computers to be inoperable due to any RSSO deployment issues. If the Customer Account Data
Engine 2 went offline, returns could not be processed timely, and this was a risk that the
Enterprise Operations function was not willing to take.
The cumulative effect of these delays resulted in the IRS acquiring software licenses that were
not used. The IRS bought 95,000 ActivClient licenses, totaling $1,077,300, for use during the
period August 31, 2010, through August 30, 2011. In addition, 95,000 licenses for the Oracle
ESSO software were purchased for use during this same period for $1,452,550. The licenses
were never used because the IRS did not begin deploying the software until May 2012.
The IRS bought the software licenses in August 2010 in the event the RSSO deployment could
begin as originally planned in December 2010. Also, IIAM project officials wanted to use
FY 2010 funds that were available at that time but might not be available in subsequent years.

A Project Manager Was Not Appointed to Manage the Internal Identity
and Access Management Project
Many of the issues presented in the remaining sections of this report are due to the lack of a
project manager with the requisite training and experience to manage the IIAM project. The
IIAM project started in Calendar Year 2009 and was led by the Information Technology
organization’s Enterprise Services function. The Enterprise Services function did not have
staffing resources to assign a project manager. After the project team completed its milestone
exits in December 2010, the team members were reassigned to other projects, and leadership was
assigned to the Information Technology organization’s Cybersecurity office. At the end of our
fieldwork in July 2012, a project manager had not been appointed to lead the numerous complex
IIAM activities. A project manager was needed to: 1) oversee the progress in developing
two-factor authentication for administrators, applications, and the virtual private network;
2) ensure the required testing was performed; and 3) ensure ELC artifacts and review processes
required in the project’s tailoring plan were properly completed.

Use of SmartID Cards Will Be Further Delayed
The use of SmartID cards for two-factor authentication will continue to experience delays due to
the following reasons.

The IRS cannot require employees to use their SmartID cards for logical access
The IRS cannot require its employees to use their SmartID cards for logical access to the
network because it did not negotiate mandatory use of the cards with the National Treasury

                                                                                           Page 7
                                   Using SmartID Cards to Access
                          Computer Systems Is Taking Longer Than Expected



Employees Union. The Memorandum of Understanding signed by the IRS and the Union in
October 2011 invites employees to use their SmartID cards on a voluntary basis. In addition, the
IRS does not have a time period in place when it expects to mandate the use of the cards, nor has
it begun negotiations with the Union to require usage.
The IRS’s Information Technology organization directed the Labor Relations office not to
negotiate mandatory use of the SmartID cards with the National Treasury Employees Union due
to several reasons, such as the logistical problems some employees will face if they need to
replace their damaged or lost SmartID card. Some employees work in close proximity to a
SmartID card credentialing station, which facilitates a relatively easy card replacement process,
while other employees work in remote offices. The Union did not want some employees to be
required to use their SmartID cards while others are not required.
In a January 2011 memorandum to the Treasury Department, the OMB cited the department’s
lack of progress in using the SmartID cards to access computer systems. The OMB approved7
funding for the Treasury Department’s information technology development, modernization, and
enhancement initiatives based on the completion of three goals related to SmartID card usage:
       25 percent of SmartID cardholders must be using the cards for logical access to the
        network by the end of FY 2011.
       50 percent of SmartID cardholders must be using the cards by the end of FY 2012.
       100 percent of SmartID cardholders must be using the cards by the end of FY 2013.
The OMB approved development, modernization, and enhancement funding for activities only
through FY 2012 and noted that, based on successful completion of the above goals, it would
evaluate the appropriateness of funding for FY 2013 and beyond. The Treasury Department
established the OMB’s FY 2012 usage goal for the IRS.
Considering that the previous negotiations with the Union lasted approximately two years, the
next round of negotiations to mandate use of the SmartID cards could take just as long or longer,
which would further delay employees using their cards. Many employees could choose to
continue using their passwords. The delays would postpone the security enhancements of
two-factor authentication and could affect information technology funding due to not meeting the
OMB SmartID card usage goals.




7
 Department of the Treasury, Treasury Improvement Plan for Treasury Enterprise Identity, Credential and
Management Investment (Jan. 2011).

                                                                                                          Page 8
                                  Using SmartID Cards to Access
                         Computer Systems Is Taking Longer Than Expected



Inadequate progress implementing two-factor authentication for administrators
The Federal Identity and Credential Access Management Roadmap8 requires agencies to ensure
computer users authenticate to computer resources using one SmartID card. It also advises that
if using the SmartID cards for administrator accounts is not technically feasible, agencies could
use another method in the interim but should not stand up a new alternative credential
infrastructure if one is not already in place.
The General Services Administration, which creates and issues the SmartID cards, established a
limit of one identity on each SmartID card and one card per person. However, the policy
conflicts with the IRS Cybersecurity office’s policy that requires a separate identity to perform
administrator services on computer systems. Computer administrators at the IRS are issued two
identities, one for end-user access and another for their elevated administrator access.
The conflicting policies and the IIAM project’s focus on other project initiatives hindered the
IRS from making progress in this crucial area. When the IRS began the RSSO deployment in
May 2012, none of the computer administrators had the capability to use their SmartID cards for
logical access. The lack of progress is significant because administrator accounts have the most
elevated privileges on computer systems. Unauthorized access to these accounts could allow
malicious users to cause significant damage and disruption.

Inadequate progress has been made to enable the use of SmartID cards for
authentication to applications
IRS employees access approximately 1,900 internal applications. However, the IRS informed us
that only 12 applications have been enabled to use a PIV authentication service. The term
“PIV-enabled” refers to an application authenticating a user with the credentials on the user’s
SmartID card and a personal identification number, without requiring the user to type in a
password. The Oracle ESSO software does not meet the above requirement because it simply
remembers and automatically provides the password to some applications. The Oracle ESSO
software does not reduce use of passwords to authenticate to the applications. Furthermore, the
Oracle ESSO does not reduce the number of identity stores, which is a key security goal of
PIV-enabling applications.
To meet the Department of Homeland Security’s directive to expedite the use of SmartID cards
for logical access, the Treasury Department9 defined its interpretation of this requirement as it
relates to accessing applications.



8
  Identity, Credential, and Access Management Subcommittee, Federal Identity, Credential, and Access
Management (FICAM) Roadmap and Implementation Guide (Ver. 2) (Dec. 2011); issued under the auspices of the
Federal Chief Information Officers Council and at the request of the Federal Enterprise Architecture.
9
  Department of the Treasury, Department of the Treasury Interpretation on Personal Identity Verification
Enablement of Logical Access Control Systems (Nov. 2011).

                                                                                                    Page 9
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



       The Department considers an application to be PIV-enabled if: it directly
       validates the user’s PIV Authentication Certificate; or relies upon a PIV-enabled
       authentication service. To enhance the usability of our PIV-enabled applications,
       the Department is pursuing industry standard role-based access control systems
       that leverage PIV authentication such as Integrated Windows Authentication
       (IWA), CA Site Minder, and others.
The lack of progress is due to the Internal Identity and Access Management program delaying
this work until Phase 3 of the program. Program officials also cited a lack of resources to change
the existing applications. This has prevented the IRS from reducing the number of identity stores
that are used by the applications. The greater number of identity stores increases the length of
time it takes system administrators to remove access for terminated users. This issue increases
the risk of unauthorized access to the applications.

Inadequate progress has been made to configure the Enterprise Remote Access
Project to use SmartID Cards
The IIAM project has not made adequate progress to modify the Enterprise Remote Access
Project, the IRS virtual private network, to use the SmartID cards for authentication. The virtual
private network provides employees throughout the organization the capability to remotely log in
to the network and access information technology resources such as e-mail and applications.
Employees use the virtual private network while working in remote locations such as the
employee’s home, a taxpayer’s office, or a hotel.
Although developing SmartID card authentication for the virtual private network is required in
the IIAM project’s tailoring plan, the IRS does not plan to begin deploying a solution until the
summer of 2012. Furthermore, the project team does not know when the effort will be
completed or why this part of the project is delayed.
The lack of progress will result in employees using their passwords and grid cards to authenticate
to the virtual private network for an indefinite period. Although grid cards are a form of
two-factor authentication, this method is less secure and violates the mandate to use the SmartID
cards for two-factor authentication.

Recommendations
Recommendation 1: Subsequent to completing security testing for the two-factor
authentication system, the Chief Technology Officer should direct IRS Labor Relations to notify
the National Treasury Employees Union and begin negotiating mandatory use of the SmartID
cards.
       Management’s Response: The IRS agreed with this recommendation and stated the
       solution is deployed as a component that is integrated into existing systems, and those
       systems are evaluated in accordance with Cybersecurity policy. The Office of Labor

                                                                                          Page 10
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



       Strategy and Negotiations will issue notice to the National Treasury Employees Union
       and bargain as appropriate once the IRS has advised it that the processes and procedures
       for two-factor authentication with consideration for misplaced or inoperative cards is
       ready for implementation. The IRS also responded that security testing is not a condition
       for mandatory use of the SmartID cards.
       Office of Audit Comment: We disagree with the IRS’s statement that security testing
       is not a condition for mandatory use of the SmartID cards. The IRS’s Security
       Assessment and Authorization procedures require security testing when a significant
       change is made to a major system. The IRS defined the RSSO as a major change and the
       General Support System 32, which houses the RSSO components, is a major system.
       The IRS should conduct the required security testing prior to requiring employees to use
       the SmartID cards.
Recommendation 2: The Assistant Chief Information Officer, Cybersecurity, should appoint
a certified project manager with the requisite training and experience to lead the IIAM project
and provide sufficient full-time staffing and resources to the IIAM project.
       Management’s Response: The IRS agreed with the spirit and intent of this
       recommendation. The IRS will appoint a qualified project manager and will provide the
       necessary project resources to the IIAM project as documented in the IT Integrated
       Release Plan.
Recommendation 3: The Assistant Chief Information Officer, Cybersecurity, should direct
the IIAM project manager to select the most feasible method to implement two-factor
authentication for administrators and coordinate the activities needed to implement the interim
and long-term solutions.
       Management’s Response: The IRS agreed with this recommendation. By
       July 2014, the Associate Chief Information Officer, Cybersecurity, will assign project
       resources to determine if a viable solution for administrators using the SmartID card
       exists. If no viable solution exists, the IRS will direct project resources to develop and
       implement alternatives for an interim solution until a viable solution can be implemented.
       Office of Audit Comment: The July 2014 completion date set by the IRS is not
       timely. In its February 2011 memorandum, the Department of Homeland Security
       required agencies to expedite the use of the SmartID cards for logical access and upgrade
       existing logical access control systems to use the SmartID cards prior to using
       development and technology funds to complete other activities. The IRS should
       prioritize the efforts to implement two-factor authentication for administrators and set an
       earlier completion date for its corrective actions.
Recommendation 4: The Assistant Chief Information Officer, Cybersecurity, should direct
the IIAM project manager to prioritize and coordinate the work to establish the infrastructure
needed to PIV-enable applications.

                                                                                          Page 11
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



       Management’s Response: The IRS agreed with this recommendation. The IRS
       believes its current implementation, along with the work done to Active Directory, would
       meet the Treasury Department definition of PIV-enabled infrastructure/applications. The
       IRS will develop a plan to prioritize and coordinate the remaining work to establish the
       infrastructure needed for PIV-enabled applications.
       Office of Audit Comment: Developing a plan to implement this recommendation is
       not sufficient. The IRS should place a higher priority on PIV-enabling IRS applications
       and reducing the number of identity stores used by the applications.
Recommendation 5: The Assistant Chief Information Officer, Cybersecurity, should direct
the IIAM project manager to coordinate and lead the activities to plan, develop, test, and deploy
two-factor authentication using SmartID cards for logical access to the Enterprise Remote
Access Project.
       Management’s Response: The IRS agreed with this recommendation. A solution
       for remote access using the SmartID cards was developed and tested. Based on this
       testing, the User and Network Services function is upgrading components of the network
       infrastructure that are required to support the use of the SmartID cards for remote access.
       The IRS set an October 2014 completion date for this recommendation.
       Office of Audit Comment: We believe that October 2014 is not a timely deadline to
       provide SmartID card authentication for employees working remotely. The IRS should
       make its corrective actions a higher priority and set an earlier completion date.

Required Testing Was Not Conducted
The project team deployed the RSSO without performing the required testing to determine if the
system is secure and functions as intended.

Security testing was not conducted
The IIAM project team waived the Security Assessment and Authorization requirement in
October 2009 based on advice from the Cybersecurity office. The Cybersecurity office advised
the project team that it could bypass the Security Assessment and Authorization process because
the process is not applicable to a commercial off-the-shelf software implementation as long as
the software is part of the IRS Enterprise Architecture. However, as presented in Appendix IV,
the two-factor authentication system includes several components in addition to the software.
At the end of our fieldwork, the IRS informed us it would perform an event-driven security
control assessment to assess the security controls in place for the RSSO and to help determine if
the system is appropriately safeguarded. However, security testing should have been conducted
prior to system deployment to provide assurance that security risks and vulnerabilities are
identified and mitigated.


                                                                                          Page 12
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



Other types of required testing were also not conducted
The End of Test Completion report is a crucial ELC artifact that is required to summarize the
actual testing results and identify the test approach, design, planning, and execution variances
from the original test plan. The report should also provide the conclusions and recommendations
for the project as a whole. These results should then be considered by the Security Services and
Privacy Executive Steering Committee. The End of Test Completion report should address the
following types of testing:
      Integration – The purpose of integration testing is to verify functional, performance, and
       reliability requirements placed on major design items. Test cases are constructed to test
       that all components interact. 
      Application – Application testing deals with tests for the entire application. This is
       driven by the scenarios from the analysis team. Application limits and features are tested.
       The application must successfully execute all scenarios before it is ready for general use.
      Infrastructure – Infrastructure testing helps determine how well the network and
       infrastructure cope with change, specifically in relation to performance, availability,
       security, and scalability.
      Capacity – Capacity testing occurs when you simulate a surge in the number of users,
       stressing an application’s hardware infrastructure.
      Performance – Performance testing is an assessment that requires an examinee to
       actually perform a task or activity, rather than simply answering questions referring to
       specific parts. The purpose is to ensure greater fidelity to what is being tested.
The integration, infrastructure, capacity, and performance testing for the RSSO were not
addressed in the End of Test Completion report, and we found no evidence this testing was
conducted. The system to authenticate employees to the network using their SmartID cards was
not tested.
Several sections of the End of Test Completion report were missing, such as the detailed test
results and defect summary sections. Other sections, such as the executive summary and
conclusions and recommendations, contained default wording from the template, indicating the
report was not tailored to the IIAM project. In addition, the report was not approved by the
required officials, such as the preparer, project lead, test program office coach, senior test
specialist, and test program office manager.
The improper waiving of testing and deficiencies in the End of Test Completion report are due to
inadequate project oversight and the Cybersecurity office’s opinion that the RSSO was merely a
commercial off-the-shelf software implementation. The IIAM project team also cited the
successful pilot that ended in March 2010 as justification for not conducting the testing.
However, the pilot was conducted primarily to test the ActivClient middleware and the


                                                                                           Page 13
                                 Using SmartID Cards to Access
                        Computer Systems Is Taking Longer Than Expected



Passlogix v-GO SSO software. Users were given the option of using their SmartID cards to
authenticate to the network, but we saw no evidence this authentication system was tested.
Testing was also conducted after the pilot, from December 2011 to May 2012, but this testing
focused only on employees installing the Oracle ESSO software on their workstations and using
their SmartID cards to access and use of the Oracle ESSO software. This post-pilot testing by
24 employees did not include testing to evaluate the use of SmartID cards to authenticate to the
network.
Without performing the required testing, the IRS does not have adequate assurance that the
system will operate as intended and that risks have been identified and mitigated.

Key Enterprise Life Cycle Artifacts and Processes Were Not
Completed
All IRS projects are required to follow the ELC. The ELC is the approach used to manage and
implement business change through information systems initiatives, and it provides the artifacts
and processes needed to accomplish business change in a consistent and repeatable manner. The
overall objective of the ELC is to enhance chances for success by reducing risk and ensuring
compliance with internal and external standards and mandates.

Two key artifacts were not completed and two artifacts were improperly waived
System Deployment Plan – The System Deployment Plan is required to define the detailed set of
deployment activities that must be completed to deploy the IIAM components into the operating
environment. It should include the dependencies, roles and responsibilities, and deployment
schedule. However, these details were not included in this artifact. The required comprehensive
list of deployment activities and the start and end dates for the activities were missing. The
System Deployment Plan included details only for the pilot and was not updated after the pilot
was completed. An example of a crucial missing activity is the communication packet that must
be sent to employees. The communication packet advises employees on how to install the
software and what to do in the event of technical difficulties; it also contains the security policies
regarding the new two-factor authentication system. These details were not included in the
System Deployment Plan. In addition, five of the six officials required to review and approve
this artifact did not sign the document.
Transition Management Plan – The Transition Management Plan should provide the activities
to ensure a smooth transition from the developing to the receiving organization that will maintain
and support the new system. Readiness assessment workshops must be conducted, and the
results should be documented in the Transition Management Plan.




                                                                                             Page 14
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



The following questions should be answered in this artifact.
   1. How are business processes and procedures impacted?
   2. Will you have enough staff when the system is delivered?
   3. Does your staff need additional skills?
We found no evidence that the readiness assessment workshops were conducted, and the
Transition Management Plan lacked the required details. In addition, the document contained
forward-looking statements, indicating it was not updated after the Design (Milestone 3) phase.
Examples include “The SmartID card usage transition impact to the IRS receiving organization
will be assessed in Milestone 4b” and “Cross organization gaps will be updated for any readiness
gaps that may be uncovered during the readiness assessment workshops.”
In addition to the improper completion of the System Deployment Plan and Transition
Management Plan, the project team improperly waived two artifacts, the Functional
Configuration Audit and the Physical Configuration Audit.
Functional Configuration Audit – The Functional Configuration Audit is required to evaluate
the developed system to determine how well the requirements have been met. The activities
include:
      Witnessing test execution or examining the test report to ensure the system functionality
       matches its requirements.
      Verifying the accuracy of the Requirements Traceability Matrix.
      Tracing the baselined requirements to test cases.
Physical Configuration Audit – The Physical Configuration Audit is required to evaluate the
technical documentation against the system, as built, to confirm the documentation’s
effectiveness for maintenance, support, and operation.
The project team waived the Functional Configuration Audit and Physical Configuration Audit
artifacts and documented this risk in the Item Tracking Reporting and Change Control System,
justifying the decision as a low risk. The project team also justified its decision by citing the
completion of the RSSO pilot. However, as previously stated in this report, the pilot ended in
March 2010, more than two years prior to deployment of the RSSO, and did not require
employees to log in to the IRS network using the SmartID cards.
The improper completion and waiver of the artifacts is due to the IRS not appointing a project
manager with the requisite training and experience to oversee and manage the numerous and
complex IIAM project activities. The effects could be felt over the next two years as the IRS
attempts to deploy, maintain, and support the two-factor authentication system. The inadequate
System Deployment Plan could affect deployment and cause further delays. The inadequate
Transition Management Plan could prevent a smooth transition to the receiving organizations

                                                                                           Page 15
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



responsible for maintaining and supporting the new two-factor authentication processes. Lastly,
by not completing the Functional Configuration Audit and the Physical Configuration Audit
artifacts, the IRS does not have adequate assurance that the two-factor authentication system
meets all the requirements and will operate as intended when employees begin using their
SmartID cards to access the network, applications, and virtual private network.

Some key processes in the Milestone Readiness Reviews were not properly
conducted
The Milestone Readiness Review (MRR) is a significant ELC process to determine if the project
is in compliance with ELC requirements and ready to begin the next phase of work. The
reviewing organization makes a recommendation to the project’s Executive Steering Committee
on whether the project should be allowed to exit its current milestone and advance to the next
phase of work. For the IIAM project, the ELC coach conducted the MRRs. The MRR process
requires the coach to verify that process owners and stakeholders approved the artifacts listed in
the project’s tailoring plan. This process is crucial because the ELC coach does not have the
technical expertise to review the artifacts. The ELC coach is also required to validate that the
project team conducted the in-depth ELC reviews, such as the Customer Technical Reviews and
Life Cycle Stage Reviews, that are listed in the tailoring plan. To perform this process, the ELC
coach must again rely on the process owners and stakeholders to conduct these in-depth reviews
and raise concerns. The ELC coach should raise concerns if the artifacts are not approved or the
in-depth reviews are not conducted.
Key artifacts were not approved by the required officials
The Business System Requirements Report, Business System Concept Report, and Business
System Architecture Report are key artifacts required to be completed in the Domain
Architecture (Milestone 2) phase of the project. However, these artifacts were not approved by
the required officials, each contained proposed comments and changes that were not addressed,
and the ELC coach did not raise a concern during the MRR. Examples include:
      The Business System Requirements Report was not approved by the HSPD-12 Program
       Manager or the Requirements and Demand Management Program Manager. Edits were
       proposed to the capability requirements section, but the project team did not address
       them. The capability requirements are the highest level requirements associated with the
       project.
      The Business System Concept Report was missing the same approvals as the Business
       System Requirements Report. Comments were made about the key factors that will
       contribute to the overall success of the project. However, these comments were not
       addressed in the document.
      The Business System Architecture Report was missing approvals by the: 1) Internal
       Identity and Access Management Chief Architect, 2) HSPD-12 Program Manager, and

                                                                                          Page 16
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



       3) Executive Director of Enterprise Architecture. Changes were proposed to the privacy
       requirements section but were not accepted or addressed by the project team.
During the Design (Milestone 3) phase of the project, the Design Specification Report also
lacked the required signatures of the three approving officials. This artifact also contained
comments that were not addressed by the project team. Examples include comments and edits to
the assumptions and constraints of the project and the business processes.
The ELC coach informed us that he saw the required approvals in e-mail messages but in
Calendar Year 2009, it was difficult to get approving officials to electronically sign/approve the
artifacts. However, we did not see the required approvals for these documents.
We believe these key artifacts were not properly completed and approved, and the MRR process
to detect this deficiency was not effective. When key artifacts are not properly completed and
approved, the success of the project is jeopardized. Specifically, the system might not operate as
intended and additional delays or problems with the deployment could surface.
The Customer Technical Review and Life Cycle Stage Review for the Integration Test and
Evaluation were not conducted
The Integration Test and Evaluation is a significant artifact required in the IIAM project’s
System Development (Milestone 4b) phase. The purpose of the artifact is to combine all
individually developed components into a fully tested release and ensure applicable system tests
are completed. The ELC tailoring plan for the project requires an in-depth Customer Technical
Review and Life Cycle Stage Review be performed on the Integration Test and Evaluation.
However, this artifact was not completed, the in-depth reviews were not performed, and the ELC
coach did not raise a concern during the MRR.
The ELC coach did not take exception to the lack of a Customer Technical Review or a Life
Cycle Stage Review and recommended the project be approved to exit its Milestone 4b phase.
He stated that a Customer Technical Review was not required to exit Milestone 4b and a Life
Cycle Stage Review is recommended but not always required. We disagree and believe the
IIAM project team should have completed these in-depth reviews that are required by the
project’s tailoring plan.
By not verifying project artifacts were approved and validating that all the required reviews were
performed, the project was allowed to exit milestones without completing the required work.
The IRS does not have adequate assurance that the two-factor authentication system will operate
as intended when employees attempt to use their SmartID cards to access the IRS’s network and
applications. Undetected security vulnerabilities may also surface once the IRS begins to roll out
two-factor authentication to employees.




                                                                                           Page 17
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



Recommendations
Recommendation 6: To ensure security risks and vulnerabilities are identified and mitigated,
the Chief Technology Officer should direct the Cybersecurity organization to ensure the
event-driven security control assessment for the General Support System 32 is completed by
December 30, 2012.
       Management’s Response: The IRS agreed with this recommendation. The
       Associate Chief Information Officer, Cybersecurity, will ensure an event-driven security
       control assessment is performed by December 30, 2012.
Recommendation 7: The Associate Chief Information Officer, Cybersecurity, should direct
the project manager to coordinate with the Applications Development Enterprise Systems
Testing staff to ensure all required testing is completed, complete the End of Test Completion
report, and present the test results to the Security Services and Privacy Executive Steering
Committee by December 30, 2012.
       Management’s Response: The IRS disagreed with this recommendation and stated
       that testing was completed in accordance with guidance established by the ELC Project
       Management Office. The IRS stated that the RSSO was deployed to users
       in 2010 to provide feedback to the project team on any operational issues. In addition,
       the RSSO deployment to all IRS employees is already underway, with approximately
       13,000 users already activated. The IRS also stated that additional testing is not
       necessary and the deployment status and results will be shared with the Security Services
       and Privacy Executive Steering Committee.
       Office of Audit Comment: Our audit tests determined that the Oracle ESSO software
       was tested, but the more significant part of the RSSO, which is the capability that will
       allow employees to use SmartID cards to authenticate to the IRS network, was not tested.
       We examined pilot test data provided by the IIAM project team as well as all testing
       documented within the End of Testing Completion Report but could not find evidence
       that security, integration, capacity, or performance testing was conducted for this crucial
       part of the RSSO.
Recommendation 8: To ensure MRRs are properly completed, the Associate Chief
Information Officer, Strategy and Planning, should direct the ELC office to validate that required
ELC reviews such as Customer Technical Reviews and Life Cycle Stage Reviews are properly
conducted and all artifacts are finalized and approved by the required officials listed within the
artifacts.
       Management’s Response: The IRS agreed with this recommendation and stated the
       ELC Office should validate that the required ELC reviews, such as the Customer
       Technical Reviews and the Life Cycle Stage Reviews, are properly conducted following
       the procedures. The IRS also agreed that the ELC Office should ensure that all the

                                                                                          Page 18
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



       signatures designated in the artifact’s template are provided. Lastly, the IRS stated it is
       currently updating the above ELC procedures to strengthen and clarify responsibilities.
Recommendation 9: The Associate Chief Information Officer, Cybersecurity, should direct
the project manager to conduct the: 1) Functional Configuration Audit, 2) Physical
Configuration Audit, and 3) Life Cycle Stage Review for the Integration Test and Evaluation.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that the deployment of RSSO is already underway, with approximately
       13,000 users already activated; therefore, additional efforts related to preparing for the
       Integration Test and Evaluation are not needed. The IRS stated that testing was
       completed as established by the ELC Program Management Office.
       Office of Audit Comment: The IRS did not conduct the required testing for the most
       significant part of the RSSO, which is the new system employees will use with their
       SmartID cards to authenticate to the IRS network. The Integration Test and Evaluation is
       a significant ELC artifact that should be completed to ensure all applicable system tests
       were conducted. The Functional Configuration audit was also required to be completed
       to evaluate the developed system and determine how well the requirements have been
       met. Lastly, the Physical Configuration Audit was required to be completed to evaluate
       the technical documentation against the system, as built, to confirm the documentation’s
       effectiveness for maintenance, support, and operation.




                                                                                            Page 19
                                       Using SmartID Cards to Access
                              Computer Systems Is Taking Longer Than Expected



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the implementation and security of the IRS’s two-factor
authentication for logical access.1 To accomplish our objective, we:
I.         Assessed the IRS’s implementation of the SmartID two-factor authentication system for
           logical access to evaluate the progress and determine whether the system meets required
           security standards.
           A. Reviewed the Treasury Department’s HSPD-12 implementation policy to determine
              whether it meets the standards specified by the Department of Homeland Security and
              whether IRS implementation efforts related to logical access align with the policy.
              The policy was required to be developed and issued by March 31, 2011.
           B. Determined if the two-factor logical access system is secure.
               1. Evaluated policies, procedures, and security documentation related to the security
                  of the SmartID card logical access authentication to identify required security
                  controls.
               2. Obtained and reviewed Security Assessment and Authorization documentation for
                  the General Support System that hosts the SmartID card two-factor authentication
                  for logical access to determine if two-factor authentication was adequately
                  addressed. (Security Assessment and Authorization was performed for the
                  General Support System but not for the SmartID card two-factor authentication
                  for logical access.)
               3. Interviewed the infrastructure engineer who designed the process for logical
                  access authentication to determine the design and security controls that are
                  planned for two-factor authentication.
               4. Validated and assessed any security vulnerabilities identified in Steps 1–3.
               5. Determined whether the serial numbers for SmartID card certificates, which are
                  passed by the Bureau of the Public Debt’s Certificate Authority server to the IRS
                  authentication server, should be encrypted.




1
    See Appendix VII for a glossary of terms used throughout this report.

                                                                                             Page 20
                              Using SmartID Cards to Access
                     Computer Systems Is Taking Longer Than Expected



      C. Determined whether the two-factor authentication for logical access is working as
         intended and identified the cause and effect of delays.
         1. Determined the number of employees who are currently using the SmartID cards
            for logical access and the schedule for full implementation.
         2. Determined the number of logical access systems (legacy and modernized
            systems) that have been upgraded to use the SmartID cards in accordance with
            National Institute of Standards and Technology guidelines and reviewed the
            upgrade schedule for noncompliant systems. (For modernized systems, we
            determined whether the Accounts Management Services system and the
            Modernized e-File system have been upgraded.)
         3. Interviewed IIAM project leaders or appropriate officials to determine if the
            two-factor authentication for logical access is working as intended and includes
            key Federal Information Processing Standard requirements and components.
         4. Analyzed the deployment plan for the SmartID cards to identify the time period
            for using SmartID cards for logical access, and determined whether the time
            period has been rebaselined.
         5. Determined when stakeholders were initially involved in the IIAM project by
            interviewing IIAM members and reviewing ELC Milestone 1 deliverables and
            processes such as the Project Kickoff meeting, Life Cycle Stage Reviews, and
            MRRs. We reviewed documentation that shows when and how often the key
            stakeholders were engaged in the project.
         6. Reviewed the System Deployment Plan to determine the activities that should
            have been completed to mitigate the delays and avoid wasted resources.
         7. Determined whether software licenses, infrastructure, electronic certificates, or
            contractor services acquired for the full deployment of SmartID card usage in
            Calendar Year 2010 resulted in wasted funds.
II.   Determined whether key ELC processes and deliverables were followed and completed
      for the SmartID card two-factor authentication project and whether any deviations
      resulted in delays or inefficient use of resources.
      A. Determined the ELC path the SmartID card for logical access project followed and
         whether the project team completed the required key deliverables, processes, and
         Milestone Exit Reviews through the current milestone.
      B. Obtained and analyzed testing documentation for the SmartID card two-factor
         authentication initiative to determine if security testing is sufficient.




                                                                                        Page 21
                                   Using SmartID Cards to Access
                          Computer Systems Is Taking Longer Than Expected



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Federal Information Processing
Standard 2012 and related Internal Revenue Manual guidelines and the processes followed by the
IRS to implement SmartID card use for computer access. We evaluated these controls by
conducting interviews and meetings with management and staff, observing operations analysts
on site, and reviewing documentation such as standard operating procedures.




2
 National Institute of Standards and Technology, FIPS PUB 201-1, Federal Information Processing Standards
Publication: Personal Identity Verification of Federal Employees and Contractors (Mar. 2006).

                                                                                                     Page 22
                               Using SmartID Cards to Access
                      Computer Systems Is Taking Longer Than Expected



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
W. Allen Gray, Audit Manager
Cari D. Fogle, Lead Auditor
Charles O. Ekunwe, Senior Auditor
Bret Hunter, Senior Auditor
Samuel C. Mettauer, Information Technology Specialist
Daniel Oakley, Information Technology Specialist




                                                                                     Page 23
                              Using SmartID Cards to Access
                     Computer Systems Is Taking Longer Than Expected



                                                                            Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Office of Research, Analysis and Statistics RAS
Chief, Criminal Investigations SE:CI
Director, Statistics of Income RAS:S
Human Capital Officer OS:HC
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 24
                                  Using SmartID Cards to Access
                         Computer Systems Is Taking Longer Than Expected



                                                                                          Appendix IV

                 Authentication to Network Diagram




    Source: Interviews conducted and documents reviewed by the Treasury Inspector General for Tax
    Administration.
.




                                                                                                    Page 25
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected



                                                                                        Appendix V

                     Diagram of Oracle Enterprise
                   Single Sign-On Manager Software




Source: Interviews conducted and documents reviewed by the Treasury Inspector General for Tax
Administration.




                                                                                                Page 26
                             Using SmartID Cards to Access
                    Computer Systems Is Taking Longer Than Expected



                                                                                    Appendix VI

                  Delays in Implementing
              Reduced SmartID Sign-On (RSSO)




Source: Interviews conducted and documents reviewed by the Treasury Inspector General for Tax
Administration.




                                                                                                Page 27
                                 Using SmartID Cards to Access
                        Computer Systems Is Taking Longer Than Expected



                                                                               Appendix VII

                               Glossary of Terms

              Term                                         Definition
ActivClient                     A commercial off-the-shelf product sold by the ActivIdentity
                                Company that allows workstations to read a user’s SmartID
                                card for authentication.
Active Directory Leaf           Active Directory provides a central location for network
                                administration and security. It authenticates and authorizes all
                                users and computers in a Windows network. The leaf object
                                stores users’ data.
Administrator Account           An account that has elevated privileges used for managing the
                                system.
Artifact                        An artifact is the tangible result of an activity or task
                                performed during the life cycle of a project. There are
                                different categories of artifacts: solution artifacts and
                                management artifacts.
Authentication                  The process in which users are granted access to a system
                                based on their identity.
Business System Architecture    Documents components of the solution, architecture of how
Report                          the components fit together and interact, and the plan for
                                implementing the solution over time in the business area.
Business System Concept         Documents the future vision for the business area and a
Report                          conceptual system solution to support the vision.
Business System Requirement     Documents all the requirements for the solution.
Report
CA Site Minder                  A web access management product that ties security together
                                and offers single sign-on, the process by which a user logs in
                                only once to a web resource and then is automatically logged
                                in to all related resources.
Calendar Year                   The 12-consecutive month period ending on December 31.




                                                                                            Page 28
                               Using SmartID Cards to Access
                      Computer Systems Is Taking Longer Than Expected




Commercial Off-the-Shelf      An adjective that describes software or hardware products that
                              are ready-made and available for sale to the general public.
Configuration Item            Fundamental structural unit of a configuration management
                              system. Examples include individual requirements
                              documents, software, models, and plans. The configuration
                              management system oversees the life of the configuration item
                              through a combination of process and tools by implementing
                              and enabling the fundamental elements of identification,
                              change management, status accounting, and audits. The
                              objective of this system is to avoid the introduction of errors
                              related to lack of testing as well as incompatibilities with other
                              configuration items.
Customer Technical Review     A review performed by stakeholders on a work product, or
                              small group of closely related work products produced by a
                              project team, with the purpose of facilitating approval of the
                              work product by ensuring early stakeholder feedback as well
                              as early identification and resolution of issues and actions.
Design Specification Report   Documents logical design of the data and application
                              perspectives.
Encryption                    The process of transforming information (referred to as
                              plaintext) using an algorithm (called a cipher) to make it
                              unreadable to anyone except those possessing special
                              knowledge, usually referred to as a key.
End of Test Completion        Summarizes results of tests conducted, including conditions
Report                        passed and failed.
Enterprise Architecture       A strategic information asset base which defines the mission,
                              the information and technologies necessary to perform the
                              mission, and the transitional processes for implementing new
                              technologies in response to the changing needs of the mission.
Enterprise Life Cycle (ECL)   A standard approach to manage and implement business
                              change through information systems initiatives. The ELC
                              provides the direction, processes, tools, and assets necessary to
                              accomplish business change in a consistent and repeatable
                              manner.




                                                                                        Page 29
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected




Event-Driven Control          The process by which security controls are assessed following
Assessment                    changes to an information technology system. An Event-
                              Driven Control Assessment only applies to systems with an
                              existing security authorization. It does not apply to new
                              systems without a security authorization, nor does it apply to
                              systems whose security authorization is expiring. These
                              systems will still follow the current IRS Security Assessment
                              and Authorization process.
Filing Season                 The period from January 1 through mid-April when most
                              individual income tax returns are filed.
Fiscal Year                   A 12-consecutive-month period ending on the last day of any
                              month, except December. The Federal Government’s fiscal
                              year begins on October 1 and ends on September 30.
Functional Configuration      An examination of test documentation and evaluation data to
Audit                         verify that if testing of a developed product is successful, then
                              the product is acceptable (i.e., “good enough”), as determined
                              by the Subject Matter Expert and the witnessing of the testing
                              process or reviewing test results documentation to verify that
                              the configuration item has achieved the functionality specified
                              in the relevant configuration.
General Support System 32     An interconnected set of information resources under the same
                              direct management control that shares common functionality.
                              It normally includes hardware, software, information, data,
                              applications, communications, and people. General System
                              Support 32 relates to IRS workstations and support.
Grid Card                     A method of identifying users in which the user is asked to
                              input a series of characters based on a preregistered pattern on
                              a grid (that the user knows) and a grid of pseudo-random
                              characters generated by the authenticator. This method results
                              in a different series of characters each time the user
                              authenticates.
Identity Store                A system that maintains identity information. An identity
                              store is often an authoritative source for some of the
                              information it contains.




                                                                                       Page 30
                                Using SmartID Cards to Access
                       Computer Systems Is Taking Longer Than Expected




Integrated Windows®           A method of authenticating users to other systems in which
Authentication                Integrated Windows authentication does not initially prompt
                              for a user name and password. The current Windows user
                              information on the client is used for Integrated Windows
                              Authentication.
Integration Test and          The purpose is to combine all individually developed
Evaluation                    components into a fully tested release.
Item Tracking Reporting and   An information tracking system used to track and report on
Control System                issues and action items in the modernization effort.
Life Cycle Stage Review       Provides a broad, horizontal look across the technical and
                              business aspects of the solution being developed to verify that
                              it is appropriately constituted (i.e., complete, consistent, and
                              correct) given its point in the life cycle and to approve the
                              solution for baselining.
Logical Access                Controls used to determine the electronic information and
                              systems that users and other systems may access and the
                              actions that may be performed to the information accessed.
Middleware                    Software that functions at an intermediate layer between
                              applications and operating system or database management
                              system or between client and server.
Milestone Exit Review         One of the features in the Governance Layer of the ELC
                              Framework. Milestone Exit Reviews are project reviews
                              performed by IRS executives when a project has reached a life
                              cycle milestone to determine if the project will be allowed to
                              continue on to the next milestone and, if necessary, to approve
                              the required funding.
Milestone Readiness Review    A project review performed to determine if the project is ready
                              to begin the milestone exit process. Its objectives are to help
                              eliminate last minute project delays and rework often
                              experienced during Milestone Exit Reviews and to streamline
                              decisions made by the project’s governance organization. The
                              Milestone Readiness Review uses existing information to
                              determine whether or not the project team has satisfied
                              conditions outlined in the tailoring plan.




                                                                                       Page 31
                                 Using SmartID Cards to Access
                        Computer Systems Is Taking Longer Than Expected




National Institute of Standards   Under the Department of Commerce, this organization is
and Technology                    responsible for developing standards and guidelines for
                                  providing adequate information security for all Federal
                                  Government agency operations and assets.
Operating System                  An operating system is a set of software that manages
                                  computer hardware resources and provides common services
                                  for computer programs. The operating system is a vital
                                  component of the system software in a computer system.
                                  Application programs require an operating system to function.
Physical Configuration Audit      An examination of the technical documentation for designated
                                  configuration items to verify that the technical documentation,
                                  such as requirements, drawings, and software code listings,
                                  which defines the configuration items conforms to the
                                  “As-Built” configuration items.
Requirements Traceability         A tool showing the relationship between test requirement and
Matrix                            test cases.
Scalability                       Scalability is the ability of a system, network, or process to
                                  handle a growing amount of work in a capable manner or its
                                  ability to be enlarged to accommodate that growth.
Secure Hash Algorithm             The Secure Hash Algorithm is one of a number of
                                  cryptographic hash functions published by the National
                                  Institute of Standards and Technology as a U.S. Federal
                                  Information Processing Standard.
Service Patch                     A fix to software program. A patch is an actual piece of
                                  object code that is inserted into (patched into) an executable
                                  program. Patches typically are available as downloads over
                                  the Internet.
Subject Matter Expert             A subject matter expert or domain expert is a person who is an
                                  expert in a particular area or topic.
System                            A discrete set of information resources organized for the
                                  collection, processing, maintenance, use, sharing,
                                  dissemination, or disposition of information. A system
                                  normally includes hardware, software, information, data,
                                  applications, communications, and people.
System Deployment Plan            Presents the detailed plan for deploying a solution at one or
                                  more sites.


                                                                                           Page 32
                              Using SmartID Cards to Access
                     Computer Systems Is Taking Longer Than Expected




Tailoring Plan               Tailoring is modification of standard provisions of the IRS’s
                             ELC to meet the unique needs of a specific project. The
                             project tailoring plan documents all tailoring decisions,
                             explains the nature of all modifications, and provides
                             justification for each change. The plan includes initial
                             tailoring performed for the project as a whole as well as
                             tailoring refinements made to address project releases and
                             individual life cycle phases. The published tailoring plan
                             documents the engineering path, work products, and reviews
                             that a project will follow during its development life cycle.
Transition Management Plan   Presents a plan for ensuring post-deployment readiness for
                             affected end-user and operations and maintenance
                             organizations.
Two-Factor Authentication    An approach to authentication which requires the presentation
                             of two or more of the three authentication factors: something
                             the user knows (a personal identification number), something
                             the user has (a SmartID card), and something the user is (a
                             fingerprint).
Virtual Private Network      Technology for using the Internet to connect computers to
                             isolated remote computer networks that would otherwise be
                             inaccessible. A virtual private network provides security so
                             that traffic sent through the virtual private network connection
                             stays isolated from other computers.




                                                                                     Page 33
                Using SmartID Cards to Access
       Computer Systems Is Taking Longer Than Expected



                                               Appendix VIII

Management’s Response to the Draft Report




                                                         Page 34
         Using SmartID Cards to Access
Computer Systems Is Taking Longer Than Expected




                                                  Page 35
         Using SmartID Cards to Access
Computer Systems Is Taking Longer Than Expected




                                                  Page 36
         Using SmartID Cards to Access
Computer Systems Is Taking Longer Than Expected




                                                  Page 37
         Using SmartID Cards to Access
Computer Systems Is Taking Longer Than Expected




                                                  Page 38
         Using SmartID Cards to Access
Computer Systems Is Taking Longer Than Expected




                                                  Page 39
